August 8, 2003

PETER G. CAPTAIN
MANAGER, CENTRAL FLORIDA DISTRICT

LIZBETH J. DOBBINS
MANAGER, SOUTH GEORGIA DISTRICT

SUBJECT:     Audit Report – Southeast Area Employees on the Periodic Roll with No
             Wage Earning Capacity or Reemployment Determination
             (Report Number HK-AR-03-003)

This report presents the results of our audit of workers’ compensation cases classified
by the Department of Labor Office of Workers’ Compensation Programs as having no
wage earning capacity or reemployment determination (Project Number
03YN004HK000). Our objectives were to assess the Postal Service’s internal
processes to manage these cases. We also reviewed efforts by the Postal Service to
coordinate with the Office of Workers’ Compensation Programs on these cases. This
audit was initiated as a result of our review of retirement eligible Postal Service
employees on the periodic roll.

Our audit disclosed that Central Florida and South Georgia District officials
were proactive in managing cases of employees on the periodic roll. Also, injury
compensation officials in both districts periodically coordinated with the Office of
Workers’ Compensation Programs to initiate actions to resolve case issues. However,
one district had difficulty getting responses from the Office of Workers’ Compensation
Programs on the medical status of employees. In addition, the Postal Service could
be paying medical charges for nonwork-related injuries for separated employees. In
the Central Florida District, a separated employee received medical treatment for
nonwork-related injuries totaling approximately $350,000. The injury compensation
manager made numerous written requests for the Office of Workers’ Compensation
Programs to review this case, but the requests were unanswered for 6 years. We plan
to conduct a follow-up audit on this issue. Management’s comments and our
evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Erica
Blackman, director, Health Care, at (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    John A. Rapp
    DeWitt O. Harris
    Ronald E. Henderson
    Karen A. Borowski
    Susan M. Duchek
Southeast Area Employees on the Periodic Roll with No                     HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination


                                  TABLE OF CONTENTS

Executive Summary                                                              i

Part I

Introduction                                                                  1

   Background                                                                 1
   Objectives, Scope, and Methodology                                         3
   Prior Audit Coverage                                                       4

Part II

Audit Results                                                                 7

   Management of Periodic Roll Cases                                          7
   Management’s Comments                                                      8
   Evaluation of Management’s Comments                                        8

   Coordination with Office of Workers’ Compensation Programs Officials       9

   Possible Medical Charges for Nonwork-Related Injuries                     10

Appendix. Management’s Comments                                              12
Southeast Area Employees on the Periodic Roll with No                                                HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination


                                            EXECUTIVE SUMMARY

    Introduction                   This report presents the results of our audit of workers’
                                   compensation cases classified by the Department of Labor
                                   Office of Workers’ Compensation Programs as having no
                                   wage earning capacity or reemployment determination.1
                                   The Office of the Inspector General initiated this audit as a
                                   result of our review of retirement eligible Postal Service
                                   employees on the periodic roll.

    Results in Brief               Our audit disclosed that Central Florida and South Georgia
                                   District officials were proactive in managing cases of
                                   employees on the periodic roll. Also, injury compensation
                                   officials in both districts periodically coordinated with the
                                   Office of Workers’ Compensation Programs to initiate
                                   actions to resolve case issues. However, one district had
                                   difficulty getting responses from the Office of Workers’
                                   Compensation Programs on the medical status of
                                   employees.

                                   In addition, the Postal Service could be paying medical
                                   charges for nonwork-related injuries for separated
                                   employees. In the Central Florida District, a separated
                                   employee received medical treatment for nonwork-related
                                   injuries totaling approximately $350,000. The injury
                                   compensation manager made numerous written requests
                                   for the Office of Workers’ Compensation Programs to review
                                   this case, but the requests were unanswered for 6 years.
                                   We plan to conduct a follow-up audit on this issue.

    Summary of                     Management addressed one area of concern in our report
    Management’s                   regarding the periodic roll categories. Management
    Comments                       indicated that the periodic roll category limited duty should
                                   be changed to partial wage-earning capacity as defined by
                                   the Department of Labor. Management noted that limited
                                   duty is a term used by the Postal Service and provided to
                                   employees injured at work who are unable to perform their
                                   regular duties. Management’s comments, in their entirety,
                                   are included in the appendix of this report.



1
 The Office of Workers’ Compensation Programs classifies injured employees on the periodic roll in five categories.
One category–no wage earning capacity or reemployment not determined, consists of employees on the periodic roll
who have permanent disabilities or injuries that have lasted or expected to last for prolong periods over 1 year.




                                                         i
Southeast Area Employees on the Periodic Roll with No                           HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



 Overall Evaluation of        We reviewed management’s information and other
 Management’s                 supporting documentation and revised the report to reflect
 Comments                     the title used by the Department of Labor.




                                                 ii
Southeast Area Employees on the Periodic Roll with No                                    HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination


                                              INTRODUCTION

    Background                       The Federal Employees’ Compensation Act, enacted in
                                     1916, is a comprehensive workers’ compensation law
                                     designed to provide medical and death benefits, income
                                     replacement, and other services to employees with work-
                                     related injuries. The Federal Employees’ Compensation Act
                                     was not intended to serve as a retirement program and
                                     places no age or time limitation on an injured worker’s
                                     receipt of workers’ compensation benefits. As long as the
                                     injured employee’s medical evidence substantiates that the
                                     total or partial disability is related to the work injury, the
                                     individual is entitled to receive benefits. Employees who
                                     fully or partially recover from their injuries are expected to
                                     return to work. Once an employee reaches retirement age,
                                     there is no requirement for them to be removed from the
                                     periodic roll. Consequently, some beneficiaries may remain
                                     on the periodic roll until they die.

                                     The Office of Workers’ Compensation Programs adjudicates
                                     claims and pays compensation, medical, and death benefits
                                     to injured federal workers. These benefits are paid from the
                                     Department of Labor’s Employees’ Compensation Fund.
                                     Annually, all fund outlays are billed to each employing
                                     agency through a mechanism known as a chargeback. It is
                                     the responsibility of each agency to reimburse the
                                     Employees Compensation Fund for expenses paid from the
                                     fund for their injured workers. The Postal Service pays
                                     compensation for work-related injuries and death, and an
                                     administrative fee from operating revenues. The Office of
                                     Workers’ Compensation Programs chargeback year is
                                     July 1 through June 30.

                                     Employees eligible for Federal Employees’ Compensation
                                     Act benefits receive either 66 2/3 percent or 75 percent2 of
                                     their basic salary tax-free until they return to work. This
                                     amount also includes an annual cost-of-living adjustment.
                                     In fiscal year (FY) 2002, the program paid all injured federal
                                     workers over $2.2 billion in benefit compensation, including
                                     $1.61 billion in wage loss compensation and the remainder
                                     in medical and death benefits.



2
    Only employees with dependents receive 75 percent of their basic salary.



                                                           1
Southeast Area Employees on the Periodic Roll with No                                                HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



                                     In chargeback year 2002, the Postal Service paid over
                                     $805 million in workers’ compensation benefits and
                                     administrative fees to the Office of Workers’ Compensation
                                     Programs for approximately 13,400 Postal Service
                                     employees on the periodic roll. The Postal Service’s 2002
                                     chargeback costs accounted for 35 percent3 of total
                                     workers’ compensation program expenditures. The Postal
                                     Service’s costs include some cases that originated over
                                     25 years ago because the act places no age or time
                                     limitation on an injured worker’s receipt of workers’
                                     compensation benefits.

                                     The Office of Workers’ Compensation Programs classifies
                                     injured employees on the periodic roll in several categories.
                                     These include employees on the daily roll, totally disabled,
                                     partial wage-earning capacity, overpayment and no wage
                                     earning capacity or reemployment determination.
                                     Employees classified as no wage earning capacity or
                                     reemployment determination consists of employees on the
                                     periodic roll who have permanent disabilities or injuries that
                                     have lasted or are expected to last for prolonged periods
                                     exceeding 1 year. The employee is expected to return to
                                     duty as soon as possible and is to contact the agency to find
                                     out whether light or limited duty is available.

                                     As illustrated in the chart on the next page, 6,5264 of the
                                     approximately 13,400 employees on the periodic roll were
                                     classified as no wage earning capacity or reemployment not
                                     determined.




3
    The percentage is based on workers’ compensation benefits paid, excluding administrative fees.
4
    Of the 6,526 employees, 4,111 have been on the periodic roll more than 5 years.



                                                           2
Southeast Area Employees on the Periodic Roll with No                                                                    HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination


                                                                        EMPLOYEE COUNT BY PAYMENT STATUS
                                                                              AS OF NOVEMBER 2002
                                                                                  TOTAL : 13,383




                                                 Totally
                                                Disabled
                                                  2,819
                                                 (21%)




                                                                                                                         Reemployment
                                                                                                                              Not
                                                                                                                          Determined
                                                                                                                             6,526
                                             Reduced                                                                        (49%)
                                               Rate
                                              2,459
                                              (18%)




                                                            Daily                                          Overpayment
                                                           Rolls                                                142
                                                           1,437                                               (1%)
                                                           (11%)




                                      In the Southeast Area, there were 729 Postal Service
                                      employees on the periodic roll classified as no wage earning
                                      capacity or reemployment determination.

    Objectives, Scope,                Our objectives were to assess the processes used to
    and Methodology                   manage workers’ compensation cases classified as no
                                      wage earning capacity or reemployment determination. We
                                      also reviewed efforts by the Postal Service to coordinate
                                      with the Office Workers’ Compensation Programs on these
                                      cases.

                                      To assess the processes used by the Postal Service injury
                                      compensation office to manage these injury cases, we
                                      interviewed injury compensation officials located at Postal
                                      Service Headquarters, the Southeast Area, and the Central
                                      Florida and South Georgia District offices.5 The Southeast
                                      Area districts were judgmentally selected because other
                                      locations had ongoing Office of Inspector General (OIG)
                                      audits. We also statistically selected a sample of 60 injury
                                      compensation cases from the Central Florida and South
                                      Georgia Districts. Southeast Area officials provided
                                      information from the Worker’s Compensation Information


5
    The Central Florida and South Georgia District offices are under the Southeast Area office.



                                                                    3
Southeast Area Employees on the Periodic Roll with No                            HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



                              Reporting System. We did not attempt to assess the
                              reliability of the data from the system as part of our audit
                              objectives. We reviewed and analyzed case files to ensure
                              that they contained current duty and medical status reports
                              in an effort to return the employees to work.

                              To review efforts made by the Postal Service to coordinate
                              with the Department of Labor Office of Workers’
                              Compensation Programs for these cases, we reviewed case
                              files to ensure they contained written correspondence,
                              letters, memoranda, and notes of discussions between
                              Postal Service Injury Compensation officials and the Office
                              of Workers’ Compensation Programs.

                              This audit was conducted from February through
                              August 2003 in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.

 Prior Audit Coverage         We identified three prior OIG reports related to the
                              objectives of this audit.

                              Retirement Eligible Postal Service Employees on
                              the Workers’ Compensation Periodic Rolls (Report
                              Number HK-MA-03-001, dated March 21, 2003). Our
                              review disclosed that Postal Service employees age 55 and
                              older make up 49 percent (6,500) of the approximately
                              13,400 employees on the periodic roll. Further, 70 percent
                              (9,345) of the employees on the periodic roll are totally
                              disabled (with little or no future reemployment potential) or
                              reemployment has not been determined. Legislative reform
                              of the Federal Employees Compensation Act is needed to
                              address concerns that the act has become, in effect, a
                              retirement system for some workers’ compensation
                              beneficiaries. These reforms, if implemented, would
                              decrease the number of employees on the periodic roll, and
                              would reduce compensation and medical costs. We
                              recommended management pursue whether congressional
                              assistance should be sought to pay administrative fees to
                              the Office of Workers’ Compensation Programs.




                                                 4
Southeast Area Employees on the Periodic Roll with No                           HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



                              Management agreed with our recommendation, and the
                              actions taken or planned are responsive to the issues
                              identified in the report.

                              Southwest Area’s Efforts in Obtaining Appropriate
                              Chargeback Credits for Identified Wage Compensation
                              Overpayments and Refundable Disbursements (Report
                              Number LH-AR-02-003, dated May 8, 2002). The audit
                              revealed that although the Postal Service had issued
                              sufficient policies, the Southwest Area staff did not
                              implement automated or manual follow-up procedures to
                              effectively monitor previously identified wage compensation
                              overpayments and third party liability refundable
                              disbursements. As a result, the Postal Service did not
                              receive proper chargeback credit adjustments from the
                              Department of Labor, Office of Workers’ Compensation
                              Programs, for approximately $286,000 of wage
                              compensation overpayments and refundable
                              disbursements. In addition, we project the Southwest Area
                              has about 223 cases representing wage compensation
                              overpayments valued at $702,000, which have not been
                              properly monitored or followed up. We could not project the
                              number of third party cases and associated dollar value for
                              refundable disbursements. We recommended that Postal
                              Service management renew its emphasis on monitoring
                              overpayments and disbursements; issue follow-up
                              procedures that adhere to exiting policies; develop a
                              system to track previously identified wage compensation
                              overpayments; and review the cases the OIG did not audit
                              to determine whether chargeback credits were received. In
                              addition, we recommended that management consider
                              implementing these recommendations throughout the
                              Postal Service. Management agreed with our
                              recommendations and monetary impacts, and the actions
                              taken or planned should address the issues we identified.

                              Administration of Aspects of the Injury Compensation
                              Process - Long Island District (Report Number LB-AR-00-
                              002, dated September 29, 2000). The review revealed that
                              generally, the district effectively managed its limited duty
                              program. We found that district officials assigned limited
                              duty in compliance with medical restrictions, filed injury
                              claim forms with the Department of Labor in a timely
                              manner, and challenged injury claims in accordance with



                                                 5
Southeast Area Employees on the Periodic Roll with No                            HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination


                              the Federal Employee Compensation Act regulations.
                              However, we identified opportunities to improve the
                              monitoring of limited duty. Specifically, we found that duty
                              status reports were missing the next medical appointment
                              dates. We also found that limited duty case files were
                              missing documentation of job offers or had gaps of time
                              between job offers. This missing information could delay
                              the employee’s return to either limited or full duty. In
                              addition, internal controls over the payments for first-aid
                              injuries and continuation of pay could be improved. We
                              recommended the vice president, New York Metro Area,
                              require district officials to establish procedures to improve
                              management of limited duty cases, provide training to
                              supervisors explaining the importance of completing the
                              injury claim forms properly, and segregate payment function
                              responsibilities for contract physicians on first-aid injuries
                              training.

                              Management generally concurred with our
                              recommendations and the actions planned should correct
                              the issues identified in the report.




                                                 6
Southeast Area Employees on the Periodic Roll with No                                               HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination


                                            AUDIT RESULTS
    Management of                 Injury compensation officials in the Central Florida and
    Periodic Roll Cases           South Georgia Districts proactively managed periodic roll
                                  cases. The Employee and Labor Relations Manual states
                                  that injury compensation officials will monitor the
                                  employee’s medical progress using Form CA-17,6 Duty
                                  Status Report. This report gives interim medical information
                                  on an employee’s ability to return to work.

                                  We reviewed and analyzed 30 case files in each district and
                                  found that officials had obtained the Duty Status reports,
                                  and physicians’ medical reports to monitor the injured
                                  employee status. Specifically, in both districts, injury
                                  compensation officials:

                                       •   Reviewed chargeback reports received from the
                                           Office of Workers’ Compensation Programs every
                                           accounting period to ensure that medical costs were
                                           consistent with the accepted injury.

                                       •   Initiated referrals to the Postal Inspection Service on
                                           suspicious cases.

                                       •   Worked with the Office of Workers’ Compensation
                                           Programs to obtain determination or status on injured
                                           employees.

                                       •   Presented modified job offers (within medical
                                           limitations) to injured employees in an attempt to
                                           return them to work.

                                       •   Informed employees of their options to elect workers’
                                           compensation benefits or disability retirement.

                                  Additionally, in the Southeast Area, the area office acts as a
                                  liaison between the Office of Workers’ Compensation
                                  Programs and district officials to coordinate efforts to return
                                  employees to work. The Southeast Area injury
                                  compensation office has a process in place to evaluate case




6
 Form CA-17, Duty Status Report, provides an interim medical report containing information as to the employee’s
ability to return to any type of work.



                                                        7
Southeast Area Employees on the Periodic Roll with No                             HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



                              management at the district offices. Specifically, individual
                              injury compensation specialists at the area office are
                              assigned to each district office as their point of contact.

 Management’s                 Management addressed one area of concern in our report
 Comments                     regarding the periodic roll categories. Management
                              indicated that the periodic roll category limited duty should
                              be changed to partial wage-earning capacity as defined by
                              the Department of Labor. Management noted that limited
                              duty is a term used by the Postal Service and provided to
                              employees injured at work who are unable to perform their
                              regular duties.

 Evaluation of                We reviewed management’s information and other
 Management’s                 supporting documentation and revised the report to reflect
 Comments                     the title used by the Department of Labor.




                                                 8
Southeast Area Employees on the Periodic Roll with No                               HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



 Coordination with            Injury compensation officials in the Central Florida and
 Office of Workers’           South Georgia Districts periodically coordinated with the
 Compensation                 Office of Workers’ Compensation Programs to resolve
 Programs Officials           problems with cases. Specifically, injury compensation
                              officials:

                                   •   Requested updated information on a separated
                                       employee, which prompted the Office of Workers’
                                       Compensation Programs to terminate Federal
                                       Employees’ Compensation Act benefits due to a lack
                                       of updated medical documentation.

                                   •   Challenged an employee’s medical documentation
                                       prompting the Office of Workers’ Compensation
                                       Programs to decline the employee Federal
                                       Employees’ Compensation Act benefits.

                                   •   Worked with the Office of Workers’ Compensation
                                       Programs to initiate second opinions from medical
                                       professionals and in some cases challenged
                                       employees’ disability status.

                              Although injury compensation officials periodically
                              coordinated with the Office of Workers’ Compensation
                              Programs, injury compensation officials in the Central
                              Florida District stated that they had difficulty obtaining
                              medical status updates from the Office of Workers’
                              Compensation Programs. For example, over a 5-month
                              period injury compensation officials requested an
                              employee’s medical status from the Office of Workers’
                              Compensation Programs on three separate occasions, but
                              did not receive a response. District injury compensation
                              officials then referred the case to the Southeast Area office
                              to contact the Office of Workers’ Compensation Programs to
                              obtain the information. The Southeast Area office was able
                              to obtain the employee’s medical status. South Georgia
                              District officials stated that they did not encounter difficulties
                              communicating with the Office of Workers’ Compensation
                              Programs to obtain case information.




                                                 9
Southeast Area Employees on the Periodic Roll with No                                               HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



    Possible Medical               The Postal Service could be paying medical charges for
    Charges for                    nonwork-related injuries for separated employees. The
    Nonwork-Related                Employee Labor Relations Manual states that when
    Injuries                       employees are injured and their medical conditions render
                                   them unable to perform their duties, their positions are held
                                   for 1 year. At the end of 1 year, if an employee’s medical
                                   condition has not changed, the Postal Service initiates
                                   action to separate these individuals off the employment roll.

                                   Once an employee has been classified as separated, the
                                   Postal Service has limited access to medical updates for
                                   these employees. However, the Postal Service is still
                                   responsible for the medical costs of the injury sustained
                                   during their employment. The Office of Workers’
                                   Compensation Programs manages these cases and pays
                                   the medical provider. After the provider is paid, the Office of
                                   Workers’ Compensation Programs requests reimbursement
                                   from the Postal Service on the chargeback report.

                                   An injury compensation official informed the OIG that there
                                   is a potential for separated employees to receive treatment
                                   for nonwork-related injuries. For example, in the Central
                                   Florida District, a separated employee received medical
                                   treatment at a cost of approximately $350,000 for nonwork-
                                   related injuries.7 This employee filed a claim that was
                                   accepted for post-traumatic stress disorder in 1986. The
                                   official also stated that these medical charges were
                                   discovered during a review of the chargeback report. The
                                   Office of Workers’ Compensation Programs had approved
                                   and paid medical costs for unrelated hypertension and
                                   kidney conditions. Consequently, the medical payment for
                                   these nonwork-related injuries had already been made. The
                                   injury compensation official stated that the only method of
                                   monitoring the medical cost for separated employees is the
                                   chargeback report.8 This official also stated that it is a
                                   difficult process to get the Office of Workers’ Compensation
                                   Programs to credit the Postal Service for these nonwork-
                                   related medical charges.


7
  This case was not part of the 60 cases reviewed by the OIG. The Postal Service official brought this case to our
attention during the course of our audit.
8
  The Postal Service must send a written request directly to the Office of Workers’ Compensation Programs national
office to dispute errors in the chargeback report. The Office of Workers’ Compensation will make a decision and
correct verified errors by crediting the next years billing statement.



                                                        10
Southeast Area Employees on the Periodic Roll with No                                                HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



                                   The injury compensation official submitted numerous written
                                   requests to the Office of Workers’ Compensation Programs
                                   inquiring why the Postal Service was being billed for this
                                   employee’s nonwork-related injuries. The official’s requests
                                   were unanswered for 6 years. The Office of Workers’
                                   Compensation Programs responded in June 2002 that
                                   these nonwork-related injuries were accepted as part of
                                   the original 1986 stress claim. The employee died on
                                   August 11, 2002, and on November 12, 2002, the Office of
                                   Workers’ Compensation Programs sent a letter to the
                                   deceased employee asking for any uncashed compensation
                                   checks to be returned.

                                   Another employee submitted a claim for carpal tunnel
                                   syndrome that was accepted by the Office of Workers’
                                   Compensation Programs in 1992. However, the injury
                                   compensation official stated that in reviewing the
                                   chargeback report nonwork-related medical charges totaling
                                   approximately $1,250 for the treatment of a preexisting
                                   condition, narcolepsy, were approved and paid by the Office
                                   of Workers’ Compensation Programs. The official stated
                                   that this condition is not related to the original claim for
                                   carpal tunnel syndrome.

                                   Our audit revealed the potential for payment of nonwork-
                                   related medical charges for separated employees. We
                                   believe this issue should be reviewed further with the Office
                                   of Workers’ Compensation Programs.9 The OIG plans to
                                   initiate a future audit on this issue.




9
 Credits and debits for chargeback adjustments appearing on the agency’s most recent bill will be made only if
approved by the Office of Workers’ Compensation Programs.



                                                         11
Southeast Area Employees on the Periodic Roll with No   HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination



                   APPENDIX. MANAGEMENT’S COMMENTS




                                                 12
Southeast Area Employees on the Periodic Roll with No   HK-AR-03-003
 Wage Earning Capacity or Reemployment Determination




                                                 13
